<html>
<title> - THE STATE OF THE ENVIRONMENT: EVALUATING PROGRESS AND PRIORITIES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                     THE STATE OF THE ENVIRONMENT: 
                   EVALUATING PROGRESS AND PRIORITIES 

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      THURSDAY, FEBRUARY 14, 2013

                               __________

                            Serial No. 113-3

                               __________

 Printed for the use of the Committee on Science, Space, and Technology

       Available via the World Wide Web: http://science.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

78-821 PDF                       WASHINGTON : 2013 



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
ANDY HARRIS, Maryland                SCOTT PETERS, California
RANDY HULTGREN, Illinois             DEREK KILMER, Washington
LARRY BUCSHON, Indiana               AMI BERA, California
STEVE STOCKMAN, Texas                ELIZABETH ESTY, Connecticut
BILL POSEY, Florida                  MARC VEASEY, Texas
CYNTHIA LUMMIS, Wyoming              JULIA BROWNLEY, California
DAVID SCHWEIKERT, Arizona            MARK TAKANO, California
THOMAS MASSIE, Kentucky              VACANCY
KEVIN CRAMER, North Dakota
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
                                 ------                                

                      Subcommittee on Environment

                    HON. ANDY HARRIS, Maryland Chair
CHRIS STEWART, Utah,                 SUZANNE BONAMICI, Oregon
F. JAMES SENSENBRENNER, JR.,         JULIA BROWNLEY, California
    Wisconsin                        DONNA F. EDWARDS, Maryland
DANA ROHRABACHER, California         MARC VEASEY, Texas
RANDY NEUGEBAUER, Texas              MARK TAKANO, California
PAUL C. BROUN, Georgia               ALAN GRAYSON, Florida
RANDY WEBER, Texas                   EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas



                            C O N T E N T S

                      Thursday, February 14, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Andy Harris, Chairman, Subcommittee 
  on Environment, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................     5
    Written Statement............................................     6

Statement by Representative Suzanne Bonamici, Ranking Minority 
  Member, Subcommittee on Environment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     7
    Written Statement............................................     9

                               Witnesses:

The Honorable Kathleen Hartnett White, Distinguished Fellow-in-
  Residence & Director, Armstrong Center for Energy & the 
  Environment, Texas Public Policy Foundation
    Oral Statement...............................................    12
    Written Statement............................................    15

Mr. Richard Trzupek, Principal Consultant, Trinity Consulting
    Oral Statement...............................................    30
    Written Statement............................................    32

Dr. Bernard Goldstein, Professor and Dean Emeritus, University of 
  Pittsburgh Graduate School of Public Health
    Oral Statement...............................................    83
    Written Statement............................................    86

Discussion.......................................................   101

             Appendix I: Answers to Post-Hearing Questions

The Honorable Kathleen Hartnett White, Distinguished Fellow-in-
  Residence & Director, Armstrong Center for Energy & the 
  Environment, Texas Public Policy Foundation....................   122

Mr. Richard Trzupek, Principal Consultant, Trinity Consulting....   139

Dr. Bernard Goldstein, Professor and Dean Emeritus, University of 
  Pittsburgh Graduate School of Public Health....................   161

            Appendix II: Additional Material for the Record

TEPA's Pretense of Science: Regulating Phantom Risks submitted by 
  The Honorable Kathleen Hartnett White..........................   168

Memo, Re: Questionable Claims in Testimony from February 14, 2013 
  Environment Subcommittee hearing, submitted by Representative 
  Suzanne Bonamici...............................................   186


                     THE STATE OF THE ENVIRONMENT:
                   EVALUATING PROGRESS AND PRIORITIES

                              ----------                              


                      THURSDAY, FEBRUARY 14, 2013

                  House of Representatives,
                                Subcommittee on Environment
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Andy 
Harris [Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Harris. The Subcommittee on Environment will come 
to order.
    Good morning. Welcome to today's hearing entitled ``The 
State of the Environment: Evaluating Progress and Priorities.'' 
In front of you are packets containing the written testimony, 
biographies and Truth in Testimony disclosures for today's 
witness panels. I recognize myself for five minutes for an 
opening statement.
    Good morning. Welcome to the first hearing of the 
Environment Subcommittee in 2013. It is not only the first 
hearing in 2013, it is the first hearing of the Environment 
Subcommittee. As you know, the Committee reorganization 
separated Energy and Environment Subcommittee into two, and 
this is the Environment Subcommittee.
    Our hearing today is entitled ``The State of the 
Environment: Evaluating Progress and Priorities.'' I first want 
to recognize and welcome our new ranking member, Representative 
Suzanne Bonamici from Oregon, as well as our new Vice Chairman, 
Chris Stewart from Utah. Of course, we all welcome the 
gentleman from Texas, the Chairman of the Science, Space, and 
Technology Committee, Mr. Lamar Smith. I look forward to 
working with all the Members on the Subcommittee on a myriad of 
environmental issues in the 113th Congress.
    Today we are going to talk about the greatest story never 
told. In the last four decades, Americans have witnessed 
dramatic improvements in the environmental health of this 
country. This is characterized by the improvement in air and 
water quality, less exposure to toxic chemicals, and growing 
forest areas, to name a few. All the while, the United States 
has experienced significant growth in GDP and per capita 
income. This progress is due to a number of factors including 
technological innovations, state and local efforts, and to some 
degree, the rational implementation of federal regulations.
    Just 2 days ago would have been the 82nd birthday of Julian 
Simon, renowned economist from the University of Maryland. His 
most important insights were that the world is getting better 
all the time and that energy serves as the ``master resource'' 
for those improvements. I couldn't agree more. My children are 
growing in a much healthier world than the one where I grew up. 
However, despite the substantial progress made in environmental 
health and quality of life, Americans are constantly bombarded 
by the media and this Administration with doomsday predictions. 
For instance, we have been told that extreme storms and 
increased childhood asthma are indicators that the environment 
is worse off than ever. These allegations fly in the face of 
the hard facts, that severe weather has always been a threat 
and that our air quality has improved dramatically. These 
invented crises and the mentality around it prove what another 
fellow Marylander and columnist for the Baltimore Sun, H.L. 
Mencken wrote, and I quote, ``The whole aim of practical 
politics is to keep the populace alarmed and hence clamorous to 
be led to safety by menacing it with an endless series of 
hobgoblins, all of them imaginary.''
    So what is the solution to this disconnect between reality 
and what we are being told? How do we work together on 
continuous to enhance environmental health without needlessly 
scaring our constituents or stifling our floundering economy?
    First, I believe we must recognize and educate people about 
the incredible progress made so far. Since 1980, aggregate 
emissions of the six criteria air pollutants regulated under 
the Clean Air Act have dropped 63 percent. Over a similar 
period, there has been a 65 percent reduction in toxic release 
of chemicals tracked by the EPA. Other indicators demonstrate a 
similar trend of reduced environmental risk.
    Second, we must acknowledge that most of the gains made in 
environmental health thus far were changes that were 
affordable, or if they had high costs, the associated benefits 
were clear, significant, and cost-effective. Future progress 
will not likely be so easily identified, will be extremely 
costly and benefits may be unquantifiable. For example, the 
latest round of increasingly burdensome regulations may result 
in the closing of power plants, reducing manufacturing 
production and sending American jobs overseas. We are already 
seeing employers react to proposed EPA regulations in this 
manner. What is not included in the government's analysis is 
the added cost of regulations to consumers resulting in higher 
energy and food bills or the inevitable hardships that occur 
when companies are forced to reduce their workforce. Once these 
two tenets are accepted, that the environment is getting better 
and that even well-intended actions may harm the economy, we 
can begin to prioritize the research and development and 
regulatory agenda that actually protects human health and the 
environment without crippling the economy.
    In light of the President's pledge in this week's State of 
the Union that he will ``direct my Cabinet to come up with 
executive actions we can take now and in the future to reduce 
pollution,'' it is critical that any such actions be based on 
good, transparent science and not on imaginary hobgoblins.
    I look forward to hearing from our witnesses on how to 
balance quality science and need for regulation with true 
economic costs and benefits. Thank you.
    [The prepared statement of Mr. Harris follows:]

              Prepared Statement of Chairwoman Andy Harris

    Good morning. Welcome to the first hearing of the Environment 
Subcommittee in 2013: The State of the Environment: Evaluating Progress 
and Priorities. I want to recognize and welcome our new Ranking Member, 
Representative Suzanne Bonamici from Oregon, as well as our new Vice-
Chairman Chris Stewart from Utah. Of course, we all welcome the 
gentleman from Texas, Chairman of the Science, Space, and Technology 
Committee Lamar Smith. I look forward to working all the members of the 
subcommittee on a myriad of environmental issues in the 113th Congress.
    Today we are going to talk about the greatest story never told. In 
the last four decades, Americans have witnessed dramatic improvements 
in the environmental health of this country. This is characterized by 
the improvement in air and water quality, less exposure to toxic 
chemicals, and growing forest areas, to name a few. All the while, U.S. 
has experienced significant growth in GDP and per capita income. This 
progress is due to a number of factors, including technological 
innovations, State and local efforts, and to some degree, the rational 
implementation of Federal regulations. Just two days ago would have 
been the 82nd birthday of Julian Simon, renowned economist from the 
University of Maryland. His most important insights were that the world 
is getting better all the time and that energy serves as the ``master 
resource'' for those improvements. I could not agree more. My children 
are growing up in a much healthier world than the one where I grew up.
    However, despite the substantial progress made in environmental 
health and quality of life, Americans are constantly bombarded by the 
media and this Administration with doomsday predictions. For instance, 
we have been told that extreme storms and increased childhood asthma 
are indicators that the environment is worse off than ever. These 
allegations fly in the face of the hard facts that severe weather has 
always been a threat and that our air quality has improved 
dramatically.. This invented crisis mentality prove what another fellow 
Marylander and columnist for the Baltimore Sun, H.L. Mencken wrote, 
``The whole aim of practical politics is to keep the populace alarmed 
(and hence clamorous to be led to safety) by menacing it with an 
endless series of hobgoblins, all of them imaginary.''
    So what is the solution to this disconnect between reality and what 
we are being told? How do we work together on continuing to enhance 
environmental health without needlessly scaring our constituents or 
stifling our economy? First, I believe we must recognize and educate 
people about the incredible progress made so far. Since 1980, aggregate 
emissions of the six criteria air pollutants regulated under the Clean 
Air Act have dropped 63 percent. Over a similar period, there has been 
a 65 percent reduction in toxic releases of chemicals tracked by EPA. 
Other indicators demonstrate a similar trend of reduced environmental 
risk.
    Second, we must also acknowledge that most of the gains made in 
environmental health thus far were changes that were affordable, or if 
they had high costs, the associated benefits were clear, significant, 
and cost effective. Future progress will not likely be so easily 
identified, will be extremely costly, and benefits may be 
unquantifiable. For example, the latest round of increasingly 
burdensome regulations may result in the closing of power plants, 
reducing manufacturing production and sending jobs overseas. We are 
already seeing employers react to proposed EPA regulations in this 
manner. What is not included in the government's analysis is the added 
cost of regulations to consumers, resulting in higher energy and food 
bills, or the inevitable hardships that occur when companies are forced 
to reduce the workforce.
    Once these two tenets are accepted--that the environment is getting 
better and that even well intended actions may harm the economy--we can 
begin to prioritize a research and development and regulatory agenda 
that actually protects human health and the environment without 
crippling the economy. In light of the President's pledge in the State 
of the Union that he will ``direct my Cabinet to come up with executive 
actions we can take, now and in the future, to reduce pollution,'' it 
is critical that any such actions be based on good, transparent science 
and not on imaginary hobgoblins.
    I look forward to hearing from our witnesses on how to balance 
quality science and need for regulation with true economic costs and 
benefits.

    Chairman Harris. I now recognize the Ranking Member, the 
gentlewoman from Oregon, Ms. Bonamici, for an opening 
statement.
    Ms. Bonamici. Thank you, Chairman Harris, for holding the 
Subcommittee's first hearing on the state of our environment. 
This hearing marks an important opportunity to plan for the 
future, to set the tone for the new Congress in what I hope 
will be a collaborative effort to ensure our long-term economic 
vitality and to protect human health and our natural resources.
    It is a matter of common sense that we must coordinate 
research and technological innovation to enhance air and water 
quality to protect the health of our children and future 
generations. The 1st District of Oregon, which I represent, is 
a leader in this area, as it is in many fields. In fact, in 
June of last year, the U.S. Conference of Mayors gave 
Beaverton, Oregon, the Mayors' Climate Protection Award, and 
later that city received EPA's 2012 Leadership Award. The State 
of Oregon has additionally shown that it is committed to 
protecting human health by reducing harmful emissions, with a 
statewide goal of reducing greenhouse gas emissions to ten 
percent below 1990 levels by 2020, and 75 percent below 1990 
levels by 2050.
    I have read the testimony of the witnesses and their 
biographies, and I am glad you have come to this Committee. 
Both the majority witnesses have enjoyed long careers in the 
regulatory sector, and I understand from talking to 
environmental regulators at both the state and federal level 
that the process of implementing regulations can be both 
challenging and daunting work. With that said, this 
Subcommittee, and this hearing in particular, should focus on 
the science that has led to the successful EPA regulations that 
are acknowledged by all three witnesses, and those discoveries 
that are still unknown that may tell us more about how the 
pollution in our air and water is affecting our health.
    As technology changes and as our research methodology 
becomes more accurate, as industries change and new industries 
are created, as populations grow, new problems will continue to 
emerge. We will not have all the answers immediately, but as 
public servants it is our responsibility to continue to 
investigate.
    More than 40 years ago, Congress passed several pieces of 
landmark legislation to protect our environment: the National 
Environmental Policy Act, the Clean Air Act and the Clean Water 
Act. All of these laws passed with bipartisan support. In 1970, 
it was President Richard M. Nixon who is credited with creating 
the Environmental Protection Agency, and the EPA became the 
lead federal agency with responsibility for implementing these 
laws and today works in collaboration with other federal and 
state agencies to protect human health and our environment.
    Today, we will hear from our panelists and Subcommittee 
Members on the costs and benefits of environmental protection. 
Although there are serious questions on which we may disagree, 
we can all agree that our air and water is cleaner than it was 
40 years ago, before the Clean Air and Clean Water Acts became 
law. But our work is not done.
    As we look ahead to future EPA action, including the 
issuance of new and updated regulations, it is worth reminding 
ourselves of the source of such regulation and the benefit to 
society. In that regard, the Clean Air Act's history of 
protecting public health speaks for itself. In the four decades 
since it was signed, the Clean Air Act has prevented hundreds 
of thousands of premature deaths, not to mention saving 
trillions of dollars in health care costs. These benefits to 
the public will continue to grow. Especially in tough economic 
times, Americans understand the real economic impact. With 
fewer cases of chronic asthma attacks or bronchitis, fewer 
children and adults have to visit hospitals or doctors' 
offices. With the cost of health care widely agreed to be one 
of the central drivers of our Nation's fiscal challenges, we as 
policymakers would consider this a good result.
    The economic impacts of climate change are among the many 
challenges we face in these times of budget uncertainty. One of 
the most important issues to address will be how these changes 
will draw on our resources. If we do not have reliable, 
scientific information about the impact of climate change, our 
industries, our farmers, our states and our municipalities will 
be unable to plan for the future. I know that all of my 
colleagues agree that certainty is good for business.
    The environmental laws that we are discussing in this 
hearing have hardly been the drag on the economy that some 
predicted when they were passed in the 1960s and 1970s. When 
Congress rewrote the Federal Water Pollution Control Act in 
what became the Clean Water Act, one of the biggest threats to 
our water quality was municipal wastewater. A bipartisan 
Congress took a very important step by including funding 
provisions for states and cities to help them build wastewater 
treatment facilities. It is widely accepted among environmental 
experts across the country, and noted by all of our witnesses, 
that cleaning up our Nation's waterways has been one of the 
great successes of the Clean Water Act. In fact, both majority 
witnesses make mention of economic growth in the face of 
environmental regulation in their testimony, using data 
provided by the EPA. Over the last 20 years, while emissions of 
the six principal air pollutants were reduced by an additional 
41 percent, the Nation's Gross Domestic Product has increased 
by more than 64 percent. Additionally, GDP has risen by more 
than 200 percent since the Clean Air Act was signed more than 
40 years ago. We not only got cleaner air, but also entirely 
new technology sectors.
    Investment in environmental science, research, education 
and assessment efforts have been key to promulgating smart, 
effective regulation, and good science has been critical to 
protecting the environment as well as human health since the 
1970s. Air and water pollution continue to threaten our public 
and economic health, and we need strong science and research 
programs, both at NOAA and EPA, to help us understand the 
problems and respond.
    I am interested in hearing how Congress and this 
Subcommittee can best develop programs that suit the needs of 
our federal agencies, academic institutions and other research 
and development institutions, while continuing to provide the 
necessary information to make informed policy decisions. 
President Richard Nixon, who signed the Clean Air Act 
Amendments in 1970, said, ``I think that 1970 will be known as 
the year of the beginning, in which we really began to move on 
the problems of clean air and clean water and open spaces for 
the future generations of America.''
    Significant progress has been made, and it is now our job 
now to build upon this legacy and ensure that we will continue 
to improve our environmental quality while bolstering our 
economy. This is not science fiction; it is our history. In the 
United States, a healthy environment and a strong economy are 
not mutually exclusive. Stricter pollutions limits drive us to 
push the envelope of scientific innovation and create new 
technologies, and it has been proven many times over, that it 
can simultaneously improve worker productivity, increase 
agricultural yield, reduce mortality and illness, and achieve 
other economic and public health benefits that far outweigh the 
costs of compliance.
    Thank you, Mr. Chair.
    [The prepared statement of Ms. Bonamici follows:]

     Prepared Statement of Ranking Minority Member Suzanne Bonamici

    I want to thank Chairman Harris for holding the subcommittee's 
first hearing on the state of our environment. This hearing marks an 
important opportunity to plan for the future, to set the tone for the 
new Congress in what I hope will be a collaborative effort to ensure 
our long-term economic vitality and protect human health and our 
natural resources.
    It's a matter of common sense that we must coordinate research and 
technological innovation to enhance air and water quality to protect 
the health of our children and future generations. The First 
Congressional District of Oregon, which I represent, is a leader in 
this area, as it is in many fields. In June of 2012 the U.S. Conference 
of Mayors gave Beaverton, Oregon the Mayors' Climate Protection Award, 
and later that year the city received EPA's 2012 Leadership Award. The 
State of Oregon has additionally shown that it is committed to 
protecting human health by reducing harmful emissions, with a statewide 
goal of reducing greenhouse gas emissions to 10 percent below 1990 
levels by 2020, and 75 percent below 1990 levels by 2050.
    I have read the testimony of the witnesses and their biographies, 
and I am glad they have come before the committee. They have both 
enjoyed long careers in the regulatory sector, and I understand from 
talking to environmental regulators at both the state and federal level 
that the process of implementing regulations can be both challenging 
and daunting work. With that said, this Subcommittee, and this hearing 
in particular, should focus on the science that has led to the 
successful EPA regulations that are acknowledged by all three 
witnesses, and those discoveries that are still unknown that may tell 
us more about how the pollution in our air and water is affecting our 
health. As technology changes, as our research methodology becomes more 
accurate, as industries change and new industries are created, as 
populations grow, new problems will continue to emerge. We will not 
have all the answers immediately, but as public servants it is our 
responsibility to continue to investigate.
    More than 40 years ago, Congress passed several pieces of landmark 
legislation to protect our environment: the National Environmental 
Policy Act, the Clean Air Act and the Clean Water Act. All of these 
laws passed with bipartisan support. In 1970, it was President Richard 
M. Nixon who is credited with creating the Environmental Protection 
Agency. The EPA became the lead federal agency with responsibility for 
implementing these laws and today works in collaboration with other 
federal and state agencies to protect human health and our environment.
    Today, we will hear from our panelists and Subcommittee members on 
the costs and benefits of environmental protection. Although there are 
serious questions on which we may disagree, we can all agree that our 
air and water is cleaner than it was 40 years ago, before the Clean Air 
and Clean Water Acts became law. But our work is not done.
    As we look ahead to future EPA action, including the issuance of 
new and updated regulations, it is worth reminding ourselves of the 
source of such regulation and the benefit to society. In that regard, 
the Clean Air Act's history of protecting public health speaks for 
itself.
    In the four decades since it was signed, the Clean Air Act has 
prevented hundreds of thousands of premature deaths, not to mention 
saving trillions of dollars in health care costs. These benefits to the 
public will continue to grow. Especially in tough economic times, 
Americans understand the real economic impact. With fewer cases of 
chronic asthma attacks or bronchitis, fewer children and adults have to 
visit hospitals and doctors' offices . With the cost of health care 
widely agreed to be one of the central drivers of our nation's fiscal 
challenges, we as policymakers would consider this a good result.
    The economic impacts of climate change are among the many 
challenges we face in these times of budget uncertainty. One of the 
most important issues to address will be how these changes will draw on 
our resources. If we do not have reliable, scientific information about 
the impact of climate change, our industries, our farmers, our states 
and municipalities will be unable to plan for the future. I know that 
all of my colleagues agree that certainty is good for business.
    The environmental laws that we are discussing in this hearing have 
hardly been the drag on the economy that some predicted when they were 
passed in the late 60s and early 70s. When Congress rewrote the Federal 
Water Pollution Control Act into what became the Clean Water Act, one 
of the biggest threats to our water quality was municipal wastewater. A 
bipartisan Congress took a very important step by including funding 
provisions for states and cities to help them build wastewater 
treatment facilities. It is widely accepted among environmental experts 
across the country--and noted by both the witnesses for the majority--
that cleaning up our nation's waterways has been one of the great 
successes of the Clean Water Act.
    In fact, both majority witnesses make mention of economic growth in 
the face of environmental regulation in their testimony, using data 
provided by the EPA. Over the last 20 years, while emissions of the six 
principal air pollutants were reduced by an additional 41 percent, the 
nation's Gross Domestic Product has increased by more than 64 percent. 
Additionally, GDP has risen by more than 200 percent since the Clean 
Air Act was signed more than 40 years ago. And we not only got cleaner 
air, but also entirely new technology sectors.
    Investment in environmental science, research, education and 
assessment efforts have been key to promulgating smart, effective 
regulations, and good science has been critical to protecting the 
environment as well as human health since the 1970s. Air and water 
pollution continue to threaten our public and economic health, and we 
need strong science and research programs at both NOAA and EPA to help 
us understand the problems and respond. I am interested in hearing how 
Congress and this subcommittee can best develop programs that suit the 
needs of our federal agencies, academic institutions and other research 
and development institutions, while continuing to provide the necessary 
information to make informed policy decisions.
    Quoting Republican President Nixon, who signed the Clean Air Act 
Amendments into law in 1970: ``I think that 1970 will be known as the 
year of the beginning, in which we really began to move on the problems 
of clean air and clean water and open spaces for the future generations 
of America.''
    Significant progress has been made in the past 40 years, and it is 
our job now to build upon this legacy and ensure that we continue to 
improve our environmental quality while bolstering our economy. This is 
not science fiction; it is our history. In the U.S., a healthy 
environment and a strong economy are not mutually exclusive. Stricter 
pollutions limits drive us to push the envelope of scientific 
innovation and create new technologies. And, as it has been proven many 
times over, they can simultaneously improve worker productivity, 
increase agricultural yield, reduce mortality and illness, and achieve 
other economic and public health benefits that far outweigh the costs 
of compliance.

    Thank you, and I yield back.

    Chairman Harris. Thank you, Ms. Bonamici.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time I would like to introduce our witnesses. Our 
first witness is the Hon. Kathleen Hartnett White, 
Distinguished Fellow-in-Residence and Director for the 
Armstrong Center for Energy and the Environment at the Texas 
Public Policy Foundation. Prior to joining the foundation, Ms. 
White served a six-year term as Chairman and Commissioner of 
the Texas Commission on Environmental Quality, the second 
largest environmental regulatory agency in the world after the 
United States Environmental Protection Agency. Prior to joining 
that commission, she served on the Texas Water Development 
Board. She also served on the Texas Economic Development 
Commission and the Environmental Flow Study Commission.
    Our next witness will be Mr. Richard Trzupek, Principal 
Consultant and Chemist at Trinity Consultants. Mr. Trzupek has 
worked in the environmental industry for 30 years, first as a 
Stack Tester measuring the amounts of air pollutants emitted 
from industrial smokestacks and then as an Environmental 
Consultant to small and midsized businesses. Mr. Trzupek is the 
author of numerous articles and books on environmental issues 
and air quality.
    The final witness today is Dr. Bernard Goldstein, Professor 
and Dean Emeritus at the Graduate School of Public Health at 
the University of Pittsburgh. He is a physician board certified 
in internal medicine, hematology and toxicology. He has also 
served as Assistant Administrator for EPA's Office of Research 
and Development from 1983 to 1985.
    As our witnesses should know, spoken testimony is limited 
to five minutes each after which the Members of the Committee 
will have five minutes each to ask questions.
    I now recognize Ms. White to present her testimony.

                   STATEMENT OF THE HONORABLE

                    KATHLEEN HARTNETT WHITE,

         DISTINGUISHED FELLOW-IN-RESIDENCE & DIRECTOR,

         ARMSTRONG CENTER FOR ENERGY & THE ENVIRONMENT,

                 TEXAS PUBLIC POLICY FOUNDATION

    Ms. White. Thank you, Chairman Harris, for the opportunity 
to testify on this I think extremely important but often-
neglected topic on the state of our environment at this point 
in time and the remarkable record. I also thank Chairman Smith, 
a fellow Texan, and Congressman Weber. I am very proud to call 
you Congressman. We miss you in Texas right now but I am very 
proud to call you Congressman Weber.
    I also appreciate being called to testify as a former state 
regulator who for six years main job was implementing federal 
regulations that bind the state. When you are in the state, you 
are close to the people, the businesses and the real lives that 
these regulations affect and where the proverbial rubber meets 
the road.
    Whenever I look at it, I am again really taken by the 
magnitude of the environmental improvement in this country over 
the last 40 years, particularly over the last 20. I have a 
slide up from, I think, an excellent and rare book called the 
Almanac of Environmental Trends. This is from the 2011 edition 
by Steven Hayward that I recommend highly to you as a broad 
assessment of environmental conditions and trends across 
environmental media. This is a slide from that book just 
comparing there major social policies: the extent of the 
population on welfare, the crime rate and the amount of 
reductions in aggregate emissions, the lower green line. You 
see the incredible trend there. I would say also this has data 
from federal sources until 2007 that you would see a sharper 
decline in the last, really last five years. There has been 
very significant decline. You would see a very slight uptake in 
the crime rate and you would see, unfortunately, a measurable 
increase in the welfare rolls.
    I am not going to repeat what the Chairman has already said 
in terms of the quantity of reduction in the criteria 
pollutants, EPA's main job implementing National Ambient Air 
Quality Standards, but a look at some of these numbers is 
really, really amazing. If you notice, ambient levels are what 
are important because that is the level of emissions that 
actually impact people: 76 percent in sulfur dioxide, 82 
percent in carbon monoxide, 90 percent reduction of lead, some 
amazing numbers.
    I guess I am repeating what you previously said but the 
fact that this amount of air quality improvement went on during 
periods of very robust economic growth I think is very 
noteworthy. I would add to the achievement with the criteria 
pollutants that emissions from our tailpipes have been reduced 
by about 90 percent while vehicle miles traveled increased 165 
percent as a result of better engine design and fuel 
formulations.
    Right now, virtually the entire country attains at least 
four of the six criteria pollutants federal standard. Some 
urban areas still wrestle with ozone and fine particulate 
manner but the trends are all positive. But as an example of 
improvement, in 1997 EPA listed, I believe it was 113 
metropolitan areas that were nonattainment for one of the 
criteria pollutants. That number has now fallen to 30. I also 
cannot resist a Texas example. Houston, Texas, home of now the 
world's largest petrochemical industrial complex with Gulf 
Coast meteorology that is the perfect recipe for high ozone 
formation did something nobody said it could do, and we 
resisted many controls EPA wanted us to put on. We used 
cutting-edge science to figure out what is exactly our problem 
in Houston, how does ozone form. We did very creative, targeted 
controls, very aggressive regulation, but that slide shows you 
that what happened, which no one thought, was under the then-
current standard 85 part per billion, Houston attained that 
standard in 2009 and 2010. In 2011, historic heat, historic 
drought, ozone levels went up again. They are already coming 
back down but I think there is a wonderful story about how the 
state with a really broad team effort--legislature, 
universities, industries, communities--figured out how to do 
that.
    I want to give just a few examples, although there is not 
time in this oral testimony--my written testimony goes in more 
detail--but again, the magnitude of improvement. Lead is an 
amazing thing--almost eliminated. But consider the health 
benefit. In the 1970s, the CDC found that 88 percent of 
children between one and five years had lead blood levels that 
exceeded the CDC's risk limit. In 2006, that is now 1.2 
percent. Lead as a risk to health has been virtually 
eliminated. Dioxins, a big family of chemical compounds, which 
if exposure is right and concentration is right, can be very 
damaging to human health, according to EPA's data, down 92 
percent. Mercury: mercury emissions in this country have been 
already reduced, and this is before EPA's new mercury rules in 
effect, by 60 to 70 percent, and the CDC now finds, and this is 
the next slide--whoops, I am a little out of order. There we 
go. This is based on CDC's, again, a blood survey of mercury 
levels in the blood of women of childbearing years. Those 
levels from the most recent survey that goes to 2008 are well 
below EPA's new standard that is two to three times stricter 
than the mercury standard by the World Health Organization or 
the U.S. Food and Drug Administration. Benzene, which is the 
most prevalent of the hazardous pollutants and is a known 
carcinogen, has been--as a national average, those are down by 
over 64 percent. In Texas--and this is the next slide--it was a 
big issue in our petrochemical areas. The upper line, dotted 
line, was a previous level and also that is the level the state 
sets for when you really need to consider the health effects. 
Again, through an intensely monitored air quality monitored 
system in that area, the Houston-Galveston area, we have 
taken--those are all the black lines are individual monitors, 
and not only is it a positive trend for the area overall, you 
see how far below. That probably amounts to an average of 87 
percent reduction of ambient benzene emissions. I could go on 
and on.
    I might say that of course EPA regulation played a major 
role in this, but were it not for the prosperity in our 
country, I think it would be impossible for this achievement. 
The creative technologies, the operational efficiencies that 
are hallmarks of the private enterprise in the free market were 
absolutely necessary for this, and if you compare environmental 
progress in developing countries, the difference is 
unbelievable. My testimony notes in a World Bank list of the 
world's worst polluted cities, in which there are about 100 
cities on each list. I will give you just one example, it was a 
list for sulfur dioxide. The highest level was in Guiyang, 
China, assigned a level, according to that methodology, of 
something like 424, and Los Angeles was the last one on the 
list with a level of 9, 50 times difference. We are very, very 
fortunate to have the prosperity that enables our businesses 
and our consumers to absorb the costs of environmental 
regulation.
    So where are we and what would I recommend as a path going 
forward? More robust science. I think we have reached a point 
at which what I call the harder sciences that can demonstrate 
actual cause like toxicology, medical science, clinical trials 
are necessary to support the path going forward. EPA has 
recently----
    Chairman Harris. If you could wrap it up?
    Ms. White. I have submitted also with my testimony a paper 
I did on what I consider a troubling, scientifically 
unjustified inflation of risks that EPA now used to justify new 
regulation and to implausibly calculate monetized benefits. I 
think it is time for harder science, for more intense 
monitoring, physical measurements and not models.
    [The prepared statement of Ms. White follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Harris. Thank you very much.
    We will now hear from Mr. Trzupek.

               STATEMENT OF MR. RICHARD TRZUPEK,

            PRINCIPAL CONSULTANT, TRINITY CONSULTING

    Mr. Trzupek. Thank you, Chairman Harris, Ranking Member 
Bonamici, Chairman Smith and other Members of the Committee for 
the opportunity to testify here today. I would also like to 
thank you on behalf of two other groups. One is, as Chairman 
Harris noted, the small to mid-sized businesses that I 
represent. They were very excited to hear that you were having 
me back. They feel like they have been given a voice through me 
and hopefully I will be worthy of that voice. The other person 
I am thanking you on behalf of is my wife, who will benefit 
from a very nice dinner this weekend because I am missing 
Valentine's Day, so thank you for her.
    I would like to begin by sharing a personal recollection of 
the state of the environment in the United States over 40 years 
ago. I grew up in the 1960s in the far southeast side of 
Chicago in the midst of the booming steel industry that 
provided my father with employment. The term ``pollution 
control'' in those days was not yet part of the lexicon. The 
skies on the south side glowed a bright orange at night and a 
fine layer of dust that collected on my father's car each 
morning offered new testimony to the tons of pollutants being 
expelled into the air. The water was little better. As 
children, we were warned the dire, potentially deadly 
consequences of swimming in the foul waters of the Calumet 
River that effectively served as an industrial sewer.
    Those days are long behind us, and, like those of you who 
remember them, I am pleased to say good riddance. Thanks to a 
lot of hard work and the expenditure of a lot of wealth, we 
have done what some back in those bad old days assured us could 
not be done. We have restored the air, water and soil of 
America to a condition of which we can all be proud.
    If the America of the 1960s was analogous to the worst 
messy teenager's room imaginable, in the America we live in 
today, we find that the old pizza boxes have been tossed, the 
floor scrubbed, the bathroom scoured and the furniture 
disinfected, and there is even a little hit of lemon wafting 
through the air. In the America we live in today, it would take 
a stereotypical severe English butler carefully tracing the 
tops of dresser drawers with fingers clad in white cotton 
gloves to find a problem.
    And to the extent that we choose to address environmental 
issues, we should recognize that the EPA, according to EPA's 
own data, industry, in most cases, is a minor contributor these 
days to emissions of pollutants of concern. We thus have a 
choice today: either to recognize and maintain the progress 
that we have made while recognizing that doing so means we can 
scale back our efforts to a more reasonable, appropriate level 
commensurate with today's reality or to spend increasing 
amounts of wealth and effort for ever-diminishing returns in 
search of an unachievable, utopian environmental purity instead 
of practicing reasonable environmental stewardship in the 
tradition of John Muir and Theodore Roosevelt.
    EPA's own data chronicles the remarkable progress we have 
made. I have shared some of this in my written testimony. Any 
sober, scientific examination of the data clearly demonstrates 
that contrary to popular misconception, America has and will 
continue to make massive reduction in the amount of pollutants 
that we release into the air, water and soil. I would like to 
point out that those reductions include reductions in 
nationwide greenhouse gas emissions. We are now down to 1997 
levels of greenhouse gas emissions according to the last 
complete EPA inventory.
    The implementation of renewable portfolio standards in over 
30 states, coal fleet retirements, the increased use of natural 
gas to generate power, and new CAFE standards will ensure that 
this trend continues. However one feels about global warming, 
the fact is that America is and will continue to do exactly 
what those concerned about AGW want us to do.
    When I say we are at a crossroads, I believe that many of 
those that are invested in the idea that today's environmental 
crisis is as bad as it was 40 years would agree but they view 
the available path somewhat differently. They would have us 
believe that we can only choose between two extremes: if you 
don't support every new environmental initiative and every EPA 
program, then, according to the prophets of doom, you therefore 
support a return to the bad old days of unlimited, unrestrained 
ecological damage, or to put in terms of Neil Simon's famous 
play, the Odd Couple, they would have us believe that choosing 
not to be Felix Unger requires one to be Oscar Madison. There 
can be no middle ground.
    For my part, I believe there is a desirable center that 
lies somewhere between polluter and puritan. Having 
accomplished so much, we should not abandon those hard-fought 
gains but we owe it to the men and women across America who 
have got us to this point to determine how much more we will 
require of them and toward what end: for as the working men and 
women across America, the people I have had the privilege to 
serve for the last 30 years who have got us here, they are the 
engineers, the plant managers, the HS professionals who are 
told they must keep their facilities in compliance while 
keeping them profitable as well. For many American industries, 
doing both has been quite the trick and a lot of sweat and toil 
has been expended accomplishing these two ends. If we are going 
to ask them to do even more with less and less to show for 
those efforts, we owe it to them as we owe it to ourselves to 
demonstrate that these efforts are necessary, not narcissism. 
Thank you.
    [The prepared statement of Mr. Trzupek follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Harris. Thank you very much, and we will move on 
to Dr. Goldstein. Welcome back.

              STATEMENT OF DR. BERNARD GOLDSTEIN,

                  PROFESSOR AND DEAN EMERITUS,

                    UNIVERSITY OF PITTSBURGH

                GRADUATE SCHOOL OF PUBLIC HEALTH

    Dr. Goldstein. Thank you, Chairman Harris and Ranking 
Member Bonamici and Members of the Subcommittee.
    I certainly agree with my fellow witnesses that we have 
come a long way in almost a half a century of environmental 
protection, and I routinely teach that to my students. I know 
of no one who teaches otherwise. But it does remind me of the 
personal experience of being at the end of a really productive 
day when I should take satisfaction in all I have accomplished 
but I find that I actually have more to do than when I started. 
Like EPA, I am further behind for two reasons. There are 
unforeseen challenges and some of the tasks are even more 
complex than I thought they were, and I will enlarge on that 
just briefly.
    New scientific tools have allowed us to identify hazards 
affecting our health and our well-being that we cannot see or 
smell, but despite our progress, we have new challenges to 
meet. When EPA was formed, the term ``nanotechnology'' had not 
been invented and the term ``cellular telephone'' would not 
have been understood. In my estimations, concerns about GMO 
food and cancer due to cell phones are largely unfounded, but I 
can say that only because of the science that has been 
developed to explore the issues. European leaders would like to 
have our measured response to concerns about cell phones and 
frankenfoods. On the other hand, nanotechnology and other 
emerging technologies present real issues that must be 
addressed in order to maximize their promise of bettering our 
lives and of economic benefits while minimizing risk.
    Improvement in many aspects of air pollution is evident but 
science shows that some of the threats, notably from ozone and 
from particulates, are worse than we thought and more 
challenging to control. For both pollutants, there is ample 
evidence of significant adverse health effects at even lower 
pollutant levels and affecting more people than previously 
appreciated, and not just in the United States but from studies 
all over the world. Just one is a recent study of a large 
national cohort showing a statistically significant mortality 
increase down to levels of fine particulates that are well 
below our current standard.
    For ozone, the change in standard from 1 hour to an 8-hour 
averaging period reflects the regulation that American society 
was changing in a way that put more people and particularly 
children at risk. We once had geographically well-defined 
cities with limited rush hours leading to a late morning ozone 
peak, but traffic now extends throughout the day. Urban sprawl 
is a fact of our life and daylong ozone problems do exist. More 
recently, studies have suggested an independent association of 
daily ozone levels with mortality so that ozone is affecting 
not just our children but our adults as well.
    Secondly, both fine particulates and ozone are not simple 
end-of-pipe products but rather are transformed in the air from 
multiple precursors coming from multiple sources. It is not 
surprising that each source points to another as being the 
major cause. We need to control decisions to be made on the 
best science, not on the best lobbying skills.
    Both pollutants also exemplify the challenge of significant 
contributions coming from multiple, small point sources, which 
is also a major problem in relation to clean water issues, 
which I do not have time to go into. An example is the rapid 
increase in shale gas drilling in local areas that are already 
near or above ozone or fine particulate standards.
    The Clean Air Act requirement that EPA review the 
scientific basis for the National Ambient Air Quality Standards 
every five years has been highly instrumental in leading to 
more effective regulation. Contrary to the repeated, and I 
emphasize, erroneous statement that the air pollution standards 
are routinely tightened by these reviews, most times the 
scientific review has led to no change in the existing standard 
and at times has even lead to relaxation or elimination of the 
standards. Revisiting standards should be the norm for all 
environmental regulation.
    Global climate change is clearly a major challenge. It is 
occurring. The EPA received its first funding to look at this 
issue from President Reagan in 1984 when I was at EPA as 
President Reagan's appointee in charge of research and 
development. It was clearly predicted then by the National 
Academy of Sciences that a rise in global carbon dioxide would 
make the earth warmer and set in motion a variety of planetary 
climate changes of potentially major consequences to us. This 
prediction has been more than amply borne out by the 
temperature records, and there is no need to go through the 
fact that last year was the hottest year on record. Nine out of 
the last ten years have been the top 10 in U.S. temperature.
    Among the overall scientific community, only a relatively 
tiny handful of climate change deniers exist, and those few as 
well as those who give them undeserved credence, need to at 
least wonder as they compulsively quibble about the extent to 
which they bear responsibility for the consequences for the 
American public of our delay. The threshold for action should 
not be the overwhelming evidence that is already in place. The 
threshold should be sufficient evidence to take out an 
insurance policy to protect the American public. We passed that 
threshold a long time ago.
    Finally, I would like to talk about sustainability. I 
chaired a National Academy of Science-National Research Council 
committee. We began by recognizing that the increasingly 
complex challenges of today require us to make effective 
tradeoffs among the environment, economic and with health, and 
social issues. We learned much about the actions that are 
already taking place, and we have developed a framework, which 
I have here and I would be willing to hand out, and it is part 
of my written testimony, that we believe will lead to improving 
our ability to meet these increasingly complex challenges 
across all of the environmental areas.
    The goal asked for by the U.S. Environmental Protection 
Agency, by today's Environmental Protection Agency, is to be 
able to maximize benefit while minimizing risk. We have to be 
able to give the tools to EPA to cut across all these various 
things working with other agencies to make this happen.
    Finally, we can today either be optimistic about how far we 
have gone or pessimistic about the challenges of the future. 
Optimism or pessimism is classically defined in terms of 
whether we see the glass as half full or half empty. For a 
sustainable future, where we are now requires us that we must 
consider the glass to be twice the size it needs to be. We must 
be able to give EPA and other of our federal agencies the 
ability to right-size that glass so that we can move forward in 
the future and be able to respond to all the challenges we are 
addressing now and will meet in the future. Thank you.
    [The prepared statement of Dr. Goldstein follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Harris. Thank you very much, and I want to thank 
all the witnesses for testifying. We are going to start the 
questioning, and I will start the round of questioning with 
myself. I recognize myself for five minutes for questions.
    And again, thank you all because I think you all addressed 
exactly what we need to address, which is look, where have we 
gone and what it is going to cost us to go further. A recent 
EPA report entitled ``America's Children and the Environment'' 
found that a number of health hazards affecting children have 
declined including lead concentration, tobacco smoke exposure, 
children living in places that don't meet National Ambient Air 
Quality Standards, but the report also noted, concurrent with 
this decline, you have an increase in the rates of childhood 
asthma, and I know asthma was mentioned as one of the maybe 
chronic asthma may have gone down but childhood asthma has gone 
up despite these improvements. ADHD, autism, these have gone 
up. I am not sure these have environmental causes. We have new 
information all the time, because they are complex.
    But does the EPA have a credible scientific basis to claim 
that further regulations, and again, as we go on further with 
regulations, they are going to be more expensive as we go on, 
we have kind of done all the things that don't cost very much 
to claim that further regulations will reduce asthma, which has 
been claimed all along for all the regulations that were put in 
place, so despite the regulations that we put in place, asthma 
has increased, when the record shows that again childhood 
asthma is increasing despite what we have done. Do we really 
have the data, the scientific data, and I will ask you first, 
Dr. Goldstein, as you suggest we need rigorous scientific data. 
We may know associations, but as you know and I know, 
associations are not causes. They are associations. Do we have 
the data on childhood asthma?
    Dr. Goldstein. I think we do. Let me go back to a study 
that we did in New Jersey----
    Chairman Harris. Let me just ask you then, if you think we 
have it, why has it gone up despite improvement in air quality?
    Dr. Goldstein. Well, again, the study we did in New Jersey, 
we were able to clearly identify that ozone was associated with 
emergency room admissions for asthma and explained eight 
percent of the variability. So if you are dealing with eight 
percent of the variability, 92 percent is due to other things. 
You can cut that in half, and so many other things are 
happening with asthma including changes in our diagnostic 
criteria and whatnot, you are not going to see that in these 
big, broader trends but you will have, as we have, clear 
evidence that ozone is associated with childhood asthma, 
particularly during the summertime months when it is increased. 
So eight percent of total asthma is important and is a public 
health hazard that should be dealt with.
    Chairman Harris. But as we have improved ozone, why hasn't 
childhood asthma gotten better?
    Dr. Goldstein. Well, again, sir, if you went from eight 
percent to four percent, you change from 100 percent to 96 
percent in something that isn't very stable, that is going up 
and down because of physicians' change in diagnosis, change in 
pattern. I don't think that is a fair comparison.
    Chairman Harris. Okay. Ms. White?
    Ms. White. I am not a scientist but I have learned that 
there are a number of studies----
    Chairman Harris. Can you put your microphone on, please?
    Ms. White. There are a number of studies which confound the 
association that Dr. Goldstein speaks about in terms--indeed, 
that show higher emergency room visits for asthma in the winter 
than the summer when ozone levels are drastically lower.
    Chairman Harris. Sure. And again, it is clearly a very 
complicated thing, and the problem is, is that we have 
testimony coming in that says we are going to save these 
hundreds of billions of dollars on childhood asthma when in 
fact I don't think there is very good evidence that we know 
what the real causes are, the complex interactions, and it 
seems we are going to spend a lot of money when we don't have 
hard evidence.
    Now, Dr. Goldstein, you previously served as the head of 
EPA's Office of Research and Development, served for a number 
of years on the Independent Science Advisory Board, and your 
testimony even mentioned the American Cancer Society cohort 
studies that have provided the basis for nearly all the Clean 
Air Act regulations in the last few years. Do you agree with 
the principle that the EPA should not be basing major 
regulatory decisions on science or data that is not publicly 
available, or phrased another way, shouldn't the EPA be making 
all this data publicly available if they are going to base 
major regulatory actions?
    Dr. Goldstein. It depends what you mean by publicly 
available. Certainly the peer-reviewed literature should be 
available and should be shown. If you are talking about the raw 
data----
    Chairman Harris. Well, we have had issues about peer review 
here in front of the Committee so, you know, peer review is the 
eyes of the beholder who appear. As I know, I have been a peer 
reviewer, as you have been. Do you think it is not unreasonable 
to say if a major regulatory action is promulgated, that we 
should have access to the raw data?
    Dr. Goldstein. Sir, I would----
    Chairman Harris. Most of these studies are federally funded 
so I am not sure what the reticence would be.
    Dr. Goldstein. I would strongly oppose having the 
requirement that raw data on something that is peer-reviewed 
be----
    Chairman Harris. Thank you. My time is limited.
    Ms. White?
    Ms. White. I think of course it should because of all kinds 
of reasons to look at it because of the extent to which the 
EPA's use of that data in the study to found regulatory 
decision of national consequence and they rely very heavily on 
those two main cohorts, Pope and Laden, and actually dismiss 
toxicological studies that show a very different outcome.
    Chairman Harris. Sure. I imagine just as the FDA requires 
seeing the actual data.
    Mr. Trzupek, should the EPA release the data or make it 
publicly available?
    Mr. Trzupek. From my perspective, yes, of course, 
especially since my clients are required to be as transparent 
as humanly possible. I think at a minimum, the EPA should be 
required to----
    Chairman Harris. And most of your clients, I take it, 
aren't federally funded?
    Mr. Trzupek. That is correct.
    Chairman Harris. Okay, whereas the studies are. Thank you.
    Ms. Bonamici, you are recognized for five minutes for 
questions.
    Ms. Bonamici. Thank you very much, Mr. Chairman. Thank you 
all for your testimony.
    Dr. Goldstein, in your testimony you mentioned, and I 
quote, ``the consequences to the American public of our delay 
in addressing the important issue of climate change,'' and you 
stated ``but the threshold for action should not be the 
overwhelming evidence that is already in place; the threshold 
should be sufficient evidence to take out an insurance policy 
to protect the American public, a threshold level that we 
passed a long time ago.'' And you go on to discuss the three 
levels of prevention: primary, to cut back on the causes of 
greenhouse gas emissions, secondary, to prepare to mitigate the 
consequences when they occur, and then you added that we want 
to avoid the tertiary prevention such as paying billions of 
dollars to help clean up after extreme storms. So we have heard 
a lot about cost-benefit analysis in this hearing, so will you 
please discuss and expand on why it is important to consider 
the costs of all three levels of prevention you mentioned in 
your testimony when weighing the costs and benefits of 
environmental regulation?
    Dr. Goldstein. Thank you. What I have said about an 
insurance policy is basically what Mayor Bloomberg said after 
Hurricane Sandy and what the insurance industry has been saying 
for quite some time. The insurance industry is now requiring 
people to consider, as they give out insurance, to consider 
potential issues related to greenhouse gas. There is no 
question that it is occurring and there is no question that we 
need to look at it.
    Primary prevention is always the best. We have lots of 
economic figures. I have always been amused by the fact that 
they usually come out with a 16 to 1 ratio, which is equivalent 
to an ounce of prevention is worth a pound of cure. We need to 
be able to prevent and we need to prevent by basically cutting 
down on greenhouse gas emissions in a way that is cost-
effective. We can do it, we should be doing it but we need to 
really push hard to make it happen, and Congress needs to be 
involved.
    Secondly, we need to improve the resilience of our 
communities. We need to be able to be responsive to these 
issues. I chair a piece of the BP settlement, which at the 
request of the BP lawyers and the plaintiffs' lawyers that is 
providing--it is the Gulf Region Health Outreach Program, which 
is aimed at improving resilience on the assumption that there 
is going to be another major disaster in there and the 
community and the physicians and everyone else should know 
better to be able to deal with this. These are the kind of 
efforts that we need, but we shouldn't have to wait for a major 
disaster to cause litigation to fund it. We need to be able to 
build resilience now so that people can respond.
    Ms. Bonamici. Thank you very much.
    Mr. Trzupek and Mrs. White, you both have been on the 
regulatory side of environmental issues for a long time and you 
both suggest in your testimony that the regulations that EPA is 
currently pursuing are onerous, not shown to yield many 
benefits, and both of you assert in one form or another that 
the EPA may be exaggerating some of the health benefits and 
basically incorrectly evaluating the value of statistical life 
and health benefits. So I wonder if you could consider the high 
cost of health care in this country and the impact that that 
has on our deficit. Won't the cost of reducing air and water 
pollution yield savings to the health care sector and save this 
country money?
    Ms. White. I would be happy to respond. If you conclude, as 
I do, after an attempt to really scour how EPA builds their 
cost-benefit analyses, if you believe that they are imputing 
health risks at levels so low, way below the National Ambient 
Air Quality Standards, that there are probably not any 
measurable health benefits. Then the cost is not justified. And 
I give you an example. From the mercury rule, Utility MACT, as 
it is often known, EPA has acknowledged that it is probably the 
most expensive rule, single rule, that they have adopted to 
date, something like that I believe at adoption--at proposal 
they said it would be $11 billion in compliance costs, and 
adoption, I think they took that down to 10.6 or something like 
that. When you look in the Federal Register, not 
interpretation, but you look at the numbers where they get very 
technical, EPA acknowledges that .004 percent of what they 
calculate as benefit come from reduction of mercury and the 
others, all the other, which is, what, 99 plus plus plus, come 
from coincidental benefits from reducing fine particulate 
matter. Then I don't see how--what EPA calls the most expensive 
rule to date, which the National Electric Reliability 
Commission and others have said has most risk of electric 
reliability across the country because of the rule may lead to 
a rapid closure of a significant part of the older coal-fired 
power plants, then to me, the costs far outweigh the benefits.
    Ms. Bonamici. And I am afraid my time has expired, so if I 
could ask Mr. Trzupek to respond perhaps in writing?
    Chairman Harris. We will probably have a second round of 
questions.
    Ms. Bonamici. Thank you, Mr. Chair.
    Chairman Harris. Thank you.
    I now recognize the gentleman from Utah, Mr. Stewart, the 
Vice Chairman.
    Mr. Stewart. Thank you, Mr. Chairman.
    Thank you for taking the time to be with us today, Mr. 
Trzupek. I am envious that you will get off your Valentine's 
with only a simple dinner. I am afraid mine will be much more 
expensive than that.
    I am a former Air Force pilot. I would like to come at this 
at a 30,000-foot level, if we could. I actually would love to 
talk to you about the relationship between state and federal 
regulators. That was my original intent here. But I would like 
to follow up on Ms. Bonamici's question and re-attack this, if 
we could, again from a very broad perspective.
    I think most of us recognize that in a perfect world, we 
would be able to live without any environmental impacts at all, 
that we wouldn't contribute to those, that we wouldn't have any 
negative impacts, but of course, the real world, that is not 
the case. There is a tradeoff between our economic vitality 
between our way of life that we have come to expect and the 
great benefits of that and the environmental impacts of that. 
So the question I have, and of course, the great challenge that 
we have is balancing these tradeoffs between the economic and 
the environmental impacts, and I would like to ask you again in 
a big-picture sort of way, do you think we do a very good job 
at that, measuring the true economic impacts? Dr. Goldstein, 
you talked about the insurance. Well, if you have a $100,000 
house, but it costs you $150,000 to insure that house, what is 
the true benefit of doing that? So do you think we do a good 
job of looking at the economic impacts? Has it become overly 
politicized, and ultimately, how can we do better at that? And 
Ms. White, could we start with you then?
    Ms. White. I don't think we do a very good job of that, and 
it is difficult to do. I think specifically in estimating 
costs, there should be a broader number of variables other than 
just compliance costs. But even more, I think we do a poor job 
of evaluating the benefits because ultimately when EPA 
promulgates a regulation, they are making a decision about 
unacceptable risk, which has so many different parts of it. 
Science, of course, is primary but science cannot give you a 
transparent point at which risk is acceptable. That to me is 
really a policy decision, and I think when Congress made those 
decisions--there is parts of the Clean Air Act that are very 
specific, and that is, I think, how we got lead virtually 
eliminated, the incredible success of the acid-rain program. 
That was when there were more prescriptive terms in the statute 
that bound EPA, that was the result of very heated debates by 
our elected representatives but they set implicitly or 
explicitly that risk level, and I think that is very, very 
important as in my judgment, the regulations that EPA is 
promulgating over the last four years have a measurably higher 
cost.
    Mr. Stewart. Mr. Trzupek?
    Mr. Trzupek. I think there are two things. One, all of the 
costs, benefits that the EPA claims are spreadsheet costs. They 
are theoretical costs. Nobody can put a witness in front of you 
who says my life was saved because I had one less microgram per 
meter of fine particulate ingested in my body. It is all on 
paper. The other thing is, it does not--none of these cost-
benefit analysis factors in lost opportunity costs. There are 
great swaths of our industrial sector that have virtually 
disappeared from this country, not solely because of the EPA 
regulations but in large part because of them. We sell, for 
example, state-of-the-art, cleanest, most efficient coal 
boilers in the world to China but we don't build them here, we 
don't install them here. We don't have that industry burgeoning 
here, which makes no sense for the environment or the economy, 
and there is many, many examples of that.
    Mr. Stewart. Yes, sir?
    Dr. Goldstein. Well, looking at it as a non-economist, I 
look at this from the point of view of what kind of numbers are 
coming that are believable and not believable. So what we have 
got is a number of 230,000 over 30 years as pointed out by Ms. 
White as being something that she doesn't believe. She feels it 
is an overestimate of what the fine particulates is responsible 
for deaths, 230,000 over 30 years. Ms. White has told you that 
benzene is a major problem. I have published over 100 papers on 
benzene. Yes, I like to hear that. But Ms. White, using the 
same methodology, EPA has looked under section whatever of the 
Clean Air Act as required to do cost-benefit, did the same 
methodology for cost-benefit on benzene, looked specifically at 
the Houston area because of all the great things that have been 
done there of how many lives have been saved over that 30-year 
period. We have heard from Mr. Trzupek that EPA likes to 
exaggerate, so what number did they come up with? They came up 
with three: three lives over 30 years using the same 
methodology, going through the same science advisory board that 
basically beats the hell out of them each time about are you 
doing this right, and they came up with three. So frankly, they 
are not exaggerating. They can't possibly have come up with 
three for them and for Houston and for 230,000 probably work 
out to 3,000 lives would be their estimate for there. You have 
got 1,000-fold difference and yet you are saying that we ought 
to focus on benzene, which I would like to see, but also we 
want to focus on benzene rather than on fine particles? Makes 
no sense at all.
    Mr. Stewart. Doctor, if I could, just very quickly in 5 
seconds, I am assuming from your answer that you believe that 
they do do a good job of evaluating those economic impacts?
    Dr. Goldstein. I do believe--I don't believe the number 
230,000. I don't know whether to believe it or not, but I do 
believe that it is a lot bigger than the benzene number, and I 
do believe that one cannot accuse EPA of routinely 
overestimating if it says that for a 30-year period or 
equivalent to a 30-year period for the entire Houston-Galveston 
area three lives were saved from its benzene actions when that 
is using exactly the same methodology that it has used for fine 
particles.
    Mr. Stewart. Mr. Chairman, I yield back. Thank you.
    Chairman Harris. Thank you very much.
    I now recognize my colleague from Maryland, Ms. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman, and to the Ranking 
Member, and also thank you to our witnesses.
    You know, I said I read all of your testimony, and I will 
just say for the record, I am a proud member of the Sierra 
Club. I was on the board of the League of Conservation Voters, 
both in Maryland and nationally. I love the work of the 
National Resources Defense Council. I worked with the 
Chesapeake Bay Foundation. I care deeply and passionately about 
my environment, and not because of a prophet of doom, not 
because I am a socialist, not because I am an alarmist or an 
extremist, not because I shriek, not because I am ecoradical or 
a hysterical enviro type, and not because I am part of a green 
tyranny, and so I would hope that we could actually have a 
conversation about the environment and the importance of the 
government's role in regulating our environment for our clean 
air and our clean water because people like me who have been 
advocates for our environment come from it because we are 
concerned citizens in our community.
    I look at the work that I have done over the years living 
in the metropolitan Washington area that is not anywhere near 
my colleague's district on the Eastern Shore and yet I care 
deeply about protecting our Chesapeake Bay from stormwater 
runoff that is created here in the metropolitan area because we 
have such huge impacts. Now, that doesn't impact my community 
but it does impact my state where hundreds of thousands of jobs 
are at risk, where our bay could have been dead had it not been 
for the great work of the Environmental Protection Agency and 
our state in making sure that we preserve and protect our bay, 
and where billions of dollars of commercial interests are at 
stake if we don't protect that bay for jobs and our overall 
economy. And so I hope we can get way from the name calling and 
really focus truly on what it is going to take from all of us 
in business, industry, in the private sector, in our federal 
and state governments and our local communities to preserve and 
protect our environment, to clean our air and our water.
    When I was a young working mother, I caught a bus on the 
side of a road, a highway, and every day I would stand there 
with my son in a stroller while the emissions were pouring out 
of every single vehicle going across the highway, so do I think 
it is a great idea that those emissions are now regulated, that 
our air is getting cleaner? It is not quite there yet. Do I 
think it is a good idea that we have made investments in clean 
fuel transportation so that people like me, young moms standing 
on the side of the road to catch a bus, are they and their 
children breathing in that air? Absolutely I do, and the role 
of the Federal Government is to make sure that it protects 
citizens like me.
    And so with that, I want to ask Mr. Trzupek a couple of 
questions. In your testimony, you stated that the environmental 
industry agree that we are at a crossroads but solutions 
operate at two extremes. You state further that if you don't 
support new environmental initiatives and every new EPA 
program, then you therefore support a return to the bad old 
days of unlimited, unrestrained ecological damage. What exactly 
is the other extreme of that argument that you posit, and have 
you heard such an argument ever presented in this Committee or 
this Congress?
    Mr. Trzupek. By this Committee and this Congress, no, and I 
believe I qualified that statement, that there are certain 
environmental extremists who are invested in this kind of 
culture of doom and that that is the message that we hear, I 
hear from that end of the spectrum.
    Ms. Edwards. And so who are those people exactly?
    Mr. Trzupek. Who are those people?
    Ms. Edwards. Yes.
    Mr. Trzupek. I hear that from environmental activist 
groups. I have heard that from Sierra Club members. I have had 
that debate with the Illinois chapter of the Sierra Club. I 
have heard that from NRDC and others.
    Ms. Edwards. Well, as I said, I mean, I am a member of one 
of those groups and I am neither an extremist or an alarmist 
but I am concerned about our environment.
    Also in your testimony, as you said, you have provided a 
fair amount of criticism to the Sierra Club, the NRDC, 
researchers, academia and industry. You said that, ``the 
relevance depends on them discovering, quantifying and 
publicizing sources of risk.'' Do you think that they are 
making it up?
    Mr. Trzupek. I think they are vastly exaggerating it. We 
live in a world of risk. There is risk associated with the 
emissions from our own breath. You can find a few parts per 
billion the pollutants that people would say that is a 
carcinogen in your own breath. I think it is the magnitude of 
risk that is routinely exaggerated.
    Ms. Edwards. Well, I mean, what you have just described is 
actually way more extreme than I have ever heard in any of my 
Sierra Club meetings. You have also stated that it is the 
advantage of some commercial sectors to create a climate of 
fear. What do you mean by that?
    Mr. Trzupek. I mean that there are people, and you will see 
the commercials like for example, an indoor air purifier that 
uses ozone to purify the indoor air, the very pollutant that 
Dr. Goldstein and others have said we need to protect ourselves 
from, and--but people sell those kind of products, taking 
advantage of that kind of climate of fear, that your air is bad 
inside so you need this protect.
    Ms. Edwards. I know my time has expired. Can you just tell 
me your scientific background and your scientific research 
background that qualifies you to make those statements?
    Mr. Trzupek. I am a chemist. I don't have a scientific 
research background, and my experience has wholly been in the 
field of air quality for the past 30 years. I have participated 
in EPA committees. I have taught a number of classes at 
different universities and for different organizations.
    Ms. Edwards. And for the record, you have also challenged 
climate science as pseudoscience but you haven't done any 
climate science research, right?
    Mr. Trzupek. I haven't done any climate science research.
    Ms. Edwards. Thank you.
    Chairman Harris. Thank you very much.
    I now recognize Mr. Weber for 5 minutes.
    Mr. Weber. Thank you, Mr. Chairman. Kathleen, good to see 
you.
    A quick question for each three of you. Is it possible to 
have too much clean air or clean water?
    Ms. White. That is often said, why do we worry about 
regulation because you can't be clean enough. In a perfect 
world, if we were not constrained by space, time and resources, 
that would be true, but I find human life is--and my father 
used to say nobody gets out of this alive--is fraught with 
dangers and all kinds of risks that we make all kinds of 
decisions about. I think when--again, what I call the most 
robust sciences that can really demonstrate causation, the 
impact of a certain pollutant level on the way the lungs and 
heart work. When that is absent from the manner in which EPA 
sets regulatory limits or calculates benefits, and I will give 
you an example, and we have talked on and off and we have been 
answering questions about fine particulate matter. EPA gets to 
this number of 230,000, if that was the number, Dr. Goldstein, 
lives at risk of early deaths, the phrase they use, by going 
way below the National Ambient Air Quality Standards by law the 
Clean Air Act requires those are set to protect public health 
with a margin of safety regardless of benefit, very 
conservative standards as they are stipulated in federal law. 
EPA finds risks way below that in these epidemiological studies 
that show a correlation between a change in death rate and a 
fine particulate matter level way below that lowest measure of 
the study down to zero, and when they did that, what 
statisticians call extrapolation, you go from where you have 
data, you assume, well, if I have it here, I bet that goes to 
the unknown, that increased the number of so-called early 
deaths from 88,000 fourfold to 320,000. That I do not think 
justifies regulation that impacts the whole economy.
    Mr. Weber. So Mr. Trzupek, I will get you to weigh in on 
it. Let me ask the question this way. It is probably not 
possible to have too much clean air and too much clean water 
but it is possible to have too much or too many regulations 
which negatively impact our productivity in such a way that the 
benefits are far outweighed by the costs. Would you agree with 
that?
    Mr. Trzupek. I would. At some point you hit a point of 
diminishing returns. Since we are talking fine particulate, I 
will highlight the recent boiler MACT regs that were finalized 
by EPA, which affect industrial boilers. Fine particulate 
reduction attributable to boiler MACT is 0.3 percent of all the 
fine particulate yet we hear what a massive benefit this would 
be. Well, if that is true, the majority of fine particulate in 
the air, according to EPA's own data, the vast majority comes 
from what they call miscellaneous sources. Those are non-
transportation, non-industrial sources. Those are natural 
sources and consumer products and everything else. Well, if 
that .3 percent reduction is really as incredibly worth it as 
EPA says, we should go after that 96-plus percent from natural 
and other sources, and obviously we are not going to do that. 
That makes no sense. We have gotten all the low-hanging fruit, 
and there is very little point for going for those things that 
have such a monumentally small benefit.
    Mr. Weber. Thank you, and I will ask you the same, Dr. 
Goldstein.
    Dr. Goldstein. I think Ms. White basically has given the 
answer. Eighty-eight thousand deaths above the threshold is a 
very major public health problem. We have to meet that problem. 
But of course, sir, there is certainly no need to get the very 
last molecule of benzene out of the air. We can have one 
molecule.
    Mr. Weber. So you can have overregulation?
    Dr. Goldstein. Of course.
    Mr. Weber. The best way to have a perfect clean air and 
water in the world, you talked about, Kathleen, was maybe to 
move to the Pacific Ocean on an island. Now, your quality of 
life may be really reduced but you will have perfect clean air 
and clean water.
    You know, in Texas, we have got 1,300 people a day moving 
there. I think they are voting with their feet. We have done a 
good job of cleaning up our air and water, and Kathleen White 
would know that firsthand. We believe that the TCEQ, our 
environmental regulatory agency, the second largest one in the 
world, who was proactive--actually, it was train wreck, or 
TNR----
    Ms. White. TNRCC.
    Mr. Weber. TNRCC, we called it, Texas Natural Resource 
Conservation Commission, and then the Texas Water Quality Board 
before that back in the 1960s, was it, Kathleen, 1970s?
    Ms. White. Sixties--well, and this is a state issue, but 
the legislature combined our health and human services agency 
with the water agency.
    Mr. Weber. So we were environmentally friendly. What is 
that old country and western song? ``I Was Country before 
Country Was Cool''? Texas was actually environmentally friendly 
before it was fashionable, before being green was fashionable.
    Ms. White. We had a state clean air act before the federal 
clean air act.
    Mr. Weber. And our economy shows that. Thank you very much. 
I yield back.
    Chairman Harris. Thank you very much, Mr. Weber, and we 
have time, I think, for a second round of questions, and I will 
open that second round and recognize myself for five minutes 
for that.
    Ms. White and Mr. Trzupek, an important check or important 
checks on EPA science are independent scientific advisory 
panels like the agency's Science Advisory Board and the Clean 
Air Scientific Advisory Committee. In your view, are these 
bodies independent and objective? Because obviously we want to 
have independent, objective bodies, panels reviewing data 
before we come up with costly regulations. Are they?
    Ms. White. It is very difficult for anyone to be 100 
percent objective, but from what I have learned on many of 
these panels, unfortunately, the majority, if not all of them, 
sometimes derive a significant portion of their income or 
almost all of their income or the institute at which they work 
from EPA studies, and so it seems to be--in fact I think on 
some of those panels, people from a state like me would love to 
see like state regulators and a much broader group from that 
and also people from more diverse scientific disciplines, which 
has also been recommended by the National Academy of Science.
    Chairman Harris. Mr. Trzupek?
    Mr. Trzupek. I would agree. From my perspective, everybody 
has their own particular blinkers on, and I would include 
myself. We all do. But in my opinion, CASAC especially is very 
heavily weighted on the academic, environmental advocate side 
with very little checks in CASAC on that particular 
perspective, and I would like to see them particularly 
reformed.
    Chairman Harris. Dr. Goldstein, you have helped to appoint 
and serve on these scientific advisory bodies, and my 
observation in medicine is not every good doctor is in an 
academic institute. Some actually are in private fields and 
they bring something to the table there and they add to the 
subject, so would you object to the inclusion of qualified 
scientists or more qualified scientists from the private sector 
serving on these panels addressing Ms. White's complaint that 
it appears there is a little inbreeding going on?
    Dr. Goldstein. Yes, as long as I can qualify it by saying 
that Ms. White is, I think absolutely wrong by saying that the 
EPA is funding most of these scientists if the majority of the 
funding comes from EPA. I think the head of Research and 
Development at EPA would love to have the kind of funding hat 
would allow them to give the majority to CASAC members. In 
fact, CASAC's members are folks who are funded to a large 
extent by the--to the extent that they are academic, by the 
National Institutes of Health and others.
    I will tell you that CASAC, at least when I chaired it, had 
a requirement from Congress that it have at least one of its 
seven members be a state official involved with air pollution 
and another be a physician.
    Chairman Harris. What about particularly private sector?
    Dr. Goldstein. I don't think there is a requirement for 
private sector----
    Chairman Harris. Do you think that there ought to be?
    Dr. Goldstein. I don't know if there should be a 
requirement but we always had someone from the private sector 
on there, and I would strongly support that.
    Chairman Harris. Let me ask you two follow-up questions, 
something we have heard before, because the question was, well, 
are they radical environmentalists who propose some of things. 
Well, look, we had Josh Fox in his hearing room, who published 
Gasland. Dr. Goldstein, you are laughing. I am going to ask 
you, have you reviewed the EPA findings on Pavillion and Parker 
County and Dimock and all the rest? I mean, they come back and 
say basically there is no scientific basis for saying what we 
have said, walking it back. Do you think there is a sound 
scientific basis for their initial findings at Pavillion? I 
don't know, you may not have read the report and it may not be 
a fair question. Have you read the report?
    Dr. Goldstein. Not the final report.
    Chairman Harris. Okay, because it has a lot of benzene 
mentioned in it actually. But, when we talk about the huge 
costs of going to the next step in some of the Clean Air Act 
requirements and regulations, the $10 billion cost mentioned 
for the mercury rule, you know, the opportunity costs that Mr. 
Trzupek mentions are true because if we take those $10 billion 
instead of investing it in that, we invest it in research to 
address why childhood asthma, you know, what are those other 96 
percent or 94 percent, I mean, what is the real cause, it is 
very complicated. I mean, we could boost the NIH research 
budget 20-fold probably for asthma or maybe 40-fold. I don't 
know. There is an opportunity cost loss when we decide that we 
are going to go down one pathway to regulate and spend and not 
use that money to perhaps more carefully define a complex 
scientific basis for solving our air and water quality. What do 
you think, Dr. Goldstein?
    Dr. Goldstein. Well, I agree with you up to the point of 
saying that first of all from the 1960s since I have been 
involved in it, I have heard over and over again these same 
arguments and then industry retreats from them, as it turns out 
that in fact they can do it at far less cost. And second of 
all, I have yet to see an example where Congress has moved 
money from one separate branch that is controlled by one 
committee to another branch. I have yet to see that kind of 
thing happen that you described.
    Chairman Harris. That is a valid argument, very valid.
    I recognize Ms. Bonamici.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    We had a lot of discussion about the role of industry in 
developing innovative technologies to reduce emissions, and I 
know, Ms. White, in your testimony you talked about prosperity 
and the importance of prosperity and how Los Angeles did a 
better job than China. I just wanted to suggest that perhaps 
that is because we do have strong environmental laws and 
regulations that motivate that innovation.
    I wanted to ask Dr. Goldstein to follow up a little bit 
about lead because Ms. White said a couple of times that lead 
has been virtually eliminated, and I wanted you to discuss the 
studies about that and also isn't there still work to be done?
    Dr. Goldstein. Well, yeah, ``virtually eliminated'' is 
simply too strong a term, I think, for what happens still in 
communities that have a lot of lead burden in their homes. 
Again, as a teacher, when I teach about environmental justice, 
I usually make the point that if something that was affecting 
the IQ of America's children was built into, say, suburban 
housing post war, say, the Formica tops, the tables, we would 
have gotten all that out by now. We haven't done that with the 
lead yet, and we still have homes with lots of lead. We still 
have kids who are affected. We have--I put in my testimony 
HUD's cost-benefit analysis of the tremendous value of taking 
the lead out of childhood homes. We simply haven't done it yet. 
So to say it is virtually eliminated, that is true for me, but 
it is not true for important segments of our population.
    Ms. Bonamici. And just to follow up, how much certainty was 
there in the science about reducing lead in the 1970s when the 
studies began?
    Dr. Goldstein. Well, in the 1970s and the 1980s, people 
have forgotten that the Reagan Administration took the last 
lead out and was based on a cost-benefit analysis that OMB 
bought and that it was costing more to have lead in than 
before, and that is at a time that CDC did not have as 
stringent a requirement as it has now based upon the new data. 
So that the lead issue, we were late on that as we have been 
late on a lot of these issues that we recognize now were 
causing significant adverse effects as I think I have testified 
that we are late on the global climate issues as well.
    Ms. Bonamici. Thank you. I yield back, Mr. Chair.
    Chairman Harris. Thank you very much.
    I recognize the gentleman from Texas, Mr. Smith.
    Chairman Smith. Thank you, Mr. Chairman.
    Mr. Chairman, when you gave your opening statement, I like 
your turn of phrase, ``the greatest story never told,'' and of 
course, you were referring to a number of ways in which the 
United States environmental metrics have been going the right 
direction. We still need to do better in a lot of areas but 
there is a lot of good news out there and sometimes that good 
news is ignored.
    Ms. White, I guess I can say Director White or Commissioner 
White, I wanted to address my first question to you, and you 
went into more detail in your written statement and I think you 
mentioned water qualify briefly in your oral statement, but I 
would like to go back and ask you if you feel that our water 
quality is important and how you can quantify that?
    Ms. White. And that is a difficult question. I think there 
is far better federal data on trends in air quality than there 
is in water quality, and for somewhat understandable reasons, I 
don't know what the extent of--how many hundreds of thousands 
of miles of every stream, small stream and then big river but 
there are a couple markers which I think again underlines a 
positive trend, a job not over, a regulatory job not over but 
very positive trends. We regulate public drinking water systems 
for, I think it is over 100 different contaminants, which is a 
good thing. We have very, very safe, and I believe as far as 
the last data I saw from EPA, 94 percent of all the public 
water systems in this country have perfect compliance with all 
the standards.
    Chairman Smith. How does that compare to, say, five years 
ago or ten years ago?
    Ms. White. Ten years ago, I think it was something like 70 
some were full compliant so there has been a 20 percent----
    Chairman Smith. Can you get me the data on that----
    Ms. White. I would be happy to.
    Chairman Smith. --compared to today's 94 percent compliance 
with, say, five years ago, ten years ago, whatever it might be? 
Again, I like the trend, which is encouraging. Okay. Thank you.
    Mr. Trzupek, I wanted to ask you about air quality. You 
mentioned that that has been improved. The EPA actually says 
there has been great progress, although they say almost half 
the American people live in counties where there is an 
unacceptable level of air pollution. I wonder if this is a 
situation where both statements are accurate or if you 
challenge the data that the EPA is using.
    Mr. Trzupek. Well, that statement is possible only because 
of redefinition of the term ``clean air.'' Over the last 40 
years, there has been 18 instances where the EPA has looked at 
National Ambient Air Quality Standards. In 10 of those, they 
have either reduced the standard or added additional standards 
that effectively did the same thing. So when you say you have 
all of these counties where people are living with unhealthy 
air, it requires that continual redefinition to make that 
happen.
    Chairman Smith. Okay. Thank you.
    And Mr. Goldstein, you mentioned, and we have heard about 
it many times recently including in the State of the Union 
address by the President, that several of the last few years 
are the warmest on record. Also, of course, if you look at the 
last 15 years or so, you see that the temperature has flatlined 
and has not gone up during that time despite predictions that 
it was going to do so. But my question to you is this, and I 
don't know the answer myself--I have asked it to a number of 
people and gotten a number of different answers. This goes to 
global warming, and to what factors do you attribute global 
warming? And if you can break it down as a percentage, that 
would be great too. You have human activity. You may have the 
influence of solar activity. You may have the influence or the 
historical cycles of temperatures going up and down, and of 
course, when we say it is the warmest on record, it depends on 
how far back you are going in the record too because it has 
been warmer before as well. But to what do you attribute global 
warming? Can you break it down and quantify it, or not break it 
down but give me what percentages is attributable to human, 
maybe to solar, it may be cyclical, or is it even possible to 
get to an answer?
    Dr. Goldstein. Everything I read gives the overwhelming 
amount to humans. We have had, I think in the last--if you look 
at the temperature records in the United States from, I guess, 
we are well over 150 years now, we have got the 10 highest of 
those 150, nine of them are in the past decade and the other 
one was in the 1990s. Something is happening.
    Chairman Smith. Well, that is true but as Mr. Trzupek just 
pointed out, if you change the standards or the methodology, 
you might end up with different results than you would have 
otherwise.
    But let me go back to my question again. Can you break 
down--I mean, you feel that most of it is attributable to human 
activity. Is it 51 percent, is it 91 percent? Does anybody 
know?
    Dr. Goldstein. Sir, I am not sure. I do know that to the 
extent that it is due--if it is due at all to a natural cycle 
involving the sun, we can't do anything about that. To the 
extent that it is due to human activity, and it is a very large 
extent, then we can do something about that part, and so 
whether it is 83 percent or 72 percent or----
    Chairman Smith. Well, is the human contribution from the 
United States--everything I read is that it is below one 
percent, it may even below a half a percent. Is that generally 
accurate?
    Dr. Goldstein. No, I don't think so at all, sir.
    Chairman Smith. What part of it would----
    Dr. Goldstein. I would say I would not--I am not an expert 
on that, but the----
    Chairman Smith. So we don't know how much people in the 
United States contribute to global warming?
    Dr. Goldstein. Well, by ``we'', if you are asking me 
individually if I can tell you right now, the answer is I 
can't, but if I could go and look at the literature and look at 
what the various groups that have looked at this from, as I 
say, during President Reagan's day, the National Academy of 
Sciences in 1984. We can give you what is the range of----
    Chairman Smith. Like I said, I have read it is below one 
percent, but I will wait to see if you feel differently.
    Dr. Goldstein. I would be happy to send----
    Chairman Smith. Your answer is you don't know right now?
    Dr. Goldstein. I am willing to bet it is not one percent. I 
would be happy to review it and send you the materials, sir.
    Chairman Smith. Okay. Thank you.
    Thank you, Mr. Chairman.
    Chairman Harris. Thank you very much.
    I recognize Mr. Stewart from Utah.
    Mr. Stewart. Thank you, Mr. Chairman.
    Once again, I would like to maybe shift gears just a little 
bit, a little bit of focus, and bring in some examples and then 
maybe a question from that. I have worked for many years in the 
energy sector in environmental consulting. Energy development, 
I think most of us would agree it is a wonderful thing for us 
on many levels. It has the potential to revolutionize our world 
both economically and from a national security perspective as 
well. In recent years, the EPA has taken a fairly aggressive 
approach to some of the technologies that have allowed us to 
take advantage of some of our resources and has initiated 
lawsuits that were quite troubling to many people and some of 
these accusations made in their environmental impacts, and then 
of course, in virtually all these cases with fracking, the 
courts have not sided with the EPA and have decided that the 
science that they had based that on was not reliable.
    Another example of the point of my question is, Ms. Jackson 
has been quoted, and of course, this has created a lot of 
emotion for people, talking about some of the pollutants and 
the best advice--she said the best advice I can give you is 
don't go outside, don't breathe the air, it might kill you. 
These types of actions or public statements, again, people look 
to these people as leaders. They look to them as affecting 
public policy and they take seriously what they say. And I 
would ask you, do you think it harms public policy? Do you 
think it harms our confidence in these leaders, these 
environmental leadership when they take actions or when they 
make statements like this that create fear and concern in the 
public and yet prove not to be true?
    Ms. White. I say this from the perspective as a former 
chief of the state's large environmental agency. I think a 
fundamental responsibility in that job is to meaningfully, 
accurately communicate to the public and not to use a kind of 
rhetoric that invokes nothing but fear and people may credibly 
disagree about the degree of pollution and its impact on health 
and all of that, but you never, I don't think--to say it more 
appropriately, you rarely ever hear senior EPA officials try to 
communicate to the public the extent of the progress we have 
made, and again, not that we are finished with it, not that 
regulation does not play a role, but I think it is--I give you 
the example of mercury, which, as I think is a great concern to 
women who are having children or have young children because 
they are the most vulnerable, and when you have--again, it 
doesn't mean caution. It is an area where I would use the 
precautionary principle of course but when you have now like 
the Center for Disease Control study that shows in a national 
blood survey--again, they are never perfect but a national 
blood survey that the average levels are way below what is even 
the EPA's extremely strict standard. Those kind of things 
should be communicated to the public.
    Mr. Stewart. Dr. Goldstein, understanding that there is 
some disagreement among the witnesses, and we respect that, 
perhaps some of us here. When you hear these types of 
statements or when you see these types of actions initiated 
through the courts, which are not borne out, does that make you 
cringe a little bit? Do you think it hurts the advocacy, or 
what is your reaction to that?
    Dr. Goldstein. No question, we need to be based upon the 
best science and there is no question that there are 
bureaucratic things that are inappropriate. I can sit down over 
a drink and we can compare the U.S. EPA with my university as 
to which have the most bureaucratic inefficiencies built into 
it. So I don't doubt that you can reason by anecdote----
    Mr. Stewart. You are going to have to buy a lot of drinks.
    Dr. Goldstein. I have been to a lot of universities.
    But, the issue of the EPA's aggressive approach on 
fracking, from where I sit in southwestern Pennsylvania, I 
don't see any slowdown whatsoever based on anything that the 
U.S. Environmental Protection Agency has done. So in terms of 
getting things right, I do not see the slightest bit of impact 
of the U.S. Environmental Protection Agency on how people are 
going about fracking except their concern that if they do it 
wrong, they are going to cause regulation to occur.
    Mr. Stewart. Yeah, exactly, and I agree with you, and the 
concern wasn't the impacts because it turned out there wasn't 
reason to slow that. My biggest concern was the public 
perception and the public concern and fear that was created by 
some of their statements and some of the accusations that they 
had made.
    Dr. Goldstein. Sir, we recently have a paper accepted for 
publication where we looked at what people were complaining of 
who believe that they have been adversely affected, and that is 
not an unbiased sample, but what are they complaining of and 
what is stressing them the most and 5, 10, 20 percent are 
saying they are being stressed by the noise, by seeing the 
trucks and whatnot. About 60, 80 percent, I don't remember the 
exact number, are saying they are being stressed by the fact 
that they think industry is lying to them. They think that 
things are being kept secret from them by industry. So we have 
got a situation in which--and I can tell you that the chemical 
industry folks that I speak to say that they think that the 
drilling industry and how they have gone about this, they are 
aghast at how poorly they have handled this. So what I see are 
people who believe that there is a problem because of what 
industry and state government is telling them, not because of 
what the federal government is saying.
    Mr. Stewart. Thank you, Mr. Chairman.
    Chairman Harris. Thank you very much.
    I recognize Mr. Weber.
    Mr. Weber. I want to follow up on what Mr. Stewart said, 
Dr. Goldstein, and I know that Kathleen Hartnett White will 
remember this, and you may too. There was a Region 6 EPA 
administrator who made the statement that in dealing with 
industry, you do like the Romans do when they invaded a 
country, you crucify the first five and then the rest of them 
will fall in line. Do you think that hurts the credibility? Do 
you think that adds to the public's perception that something 
is very, very bad wrong in this country? Do you think that 
furthers EPA's, if you will, mandate? I hate to use that word.
    Dr. Goldstein. No, sir, I do not.
    Mr. Weber. Okay. All right. Well, I am glad to get you on 
record as saying that.
    Let me go back to my earlier comments about it is not 
possible to have too much clean air and clean water but we can 
overregulate and we can negatively impact our quality of life. 
You know, we have got a study, for example, that shows in China 
it is no news to anybody that they are growing leaps and bounds 
and they are manufacturing coal plant, coal facilities. I think 
it was Mr. Trzupek that said we manufacture that clean-air 
technology over here but then we export it to China. And China 
has on the drawing board over 500,000 megawatts of coal 
generation in the coming years, and of course, you can take it 
over to India which also has over 500,000 megawatts. You drop 
back to the United States, which has only 20,000. Do you really 
believe, Dr. Goldstein, that if we negatively impact our 
industry and we put stringent requirements on them that those 
countries abroad are going to follow suit?
    Dr. Goldstein. I really don't know how to answer. I don't 
know what is going to happen. I do know that all of the studies 
that have been done in countries that have gone through rapid 
development, for instance, in Korea, show that in retrospect, 
they would have preferred to have more environmental controls. 
It costs them more money.
    Mr. Weber. Let me----
    Dr. Goldstein. Forget the health. It costs them more money.
    Mr. Weber. Let me help you. You can answer it yes or no. Do 
you believe they are going to follow suit? I think we would 
have to agree no, they are not going to follow suit. We are 
going to negatively impact our industry over in this country. 
Mexico is not going to follow suit. If you believe that those 
emissions waft over here from Mexico--I was on the 
environmental reg committee in the State of Texas and was 
aghast to hear some of the rules that the EPA was promulgating.
    And Mr. Trzupek, I will direct this question to you. In the 
Texas legislature, we passed a bill that said before the TCEQ 
could promulgate rules on the industry, that they had to do 
what we would call an industry impact analysis to take into 
account. Would you think that would be good legislation on the 
federal level?
    Mr. Trzupek. I think that would be excellent legislation on 
the federal level, and I think Texas's success and their 
remarkable economic growth and while protecting the 
environment, it is one of the best states for people in my 
business to do business in.
    Mr. Weber. You bet.
    Mr. Trzupek. And I think that would be great to take to the 
federal level.
    Mr. Weber. Thank you.
    And I will direct my last question to Ms. White. The EPA 
took over our flex permitting. Was that last year or the year 
before last? About two years ago.
    Ms. White. About two years ago.
    Mr. Weber. Can you explain that to our panel here, Ms. 
White?
    Ms. White. Okay, and I will try to do this very briefly, 
and this has to do with--in my testimony, what I think as far 
as priorities for moving forward is the importance of, as I 
said, more vigorous science but targeted regulation that does 
not go too far.
    Texas developed a permitting program for major air 
emissions sources called the flexible permits, which gave the 
facility an emission cap for the whole facility instead of a 
cap on every emission point, which is EPA's traditional way of 
doing their major air quality permits called prevention of 
significant deterioration permits, and it was stricter as one 
standard but it enabled the operator to figure out how he was 
going to run that where maybe there were days he needed to ramp 
up----
    Mr. Weber. Some fluctuation?
    Ms. White. Yes, ramp up production, but monitors showed 
most of those big industries in Houston that reduced emissions 
were under flexible permits. After 15 years EPA had never 
formally approved it but they had never----
    Mr. Weber. And they were required bylaw to do that, were 
they not?
    Ms. White. And they were required by law. And in about 2009 
or 2010, I think, they decided to disapprove it, and long story 
short, we legally challenged that decision and Texas prevailed. 
But here is the sad part of that. Many of those industries--
because when EPA disapproved it, it also sent a letter to 120 
of our major industries that said you are out of compliance 
with the law being in compliance with the law, if you are out 
of compliance, you can't even operate. So most of those 
facilities deflexed. They went back and got a version which is 
actually the traditional, more shackling EPA permit, and we 
will see how that works out.
    Just one last point that I think is a very interesting one. 
In reading all that I do about these issues, someone noted that 
EPA regulation, as it gets more and more complex and layers and 
layers, makes business operate like a bureaucracy. You're 
certifying your certification of your certification instead of 
really trying to run your business tight and efficient so you 
reduce emissions becomes what you have to do, and that might 
sound like just a general statement, but I think that is 
really----
    Mr. Weber. Scary.
    Ms. White. --scary, and how you design regulation, how you 
target, how you draw upon the creativity and motivation of the 
business owner to get the job done has, I think, greater 
environmental results.
    Mr. Weber. Thank you.
    Thank you, Mr. Chairman.
    Chairman Harris. Thank you, and I am going to recognize the 
Chairman of the Full Committee for a brief question.
    Chairman Smith. Thank you, Mr. Chairman.
    Congressman Weber's questions remind me of a couple 
questions I would like to direct to Dr. Goldstein, and this 
goes to EPA regulations as well. Would you favor, Dr. 
Goldstein, the public release of the cost of regulations before 
they are actually implemented so the American people would know 
what the economic impact would be before they are actually put 
into effect?
    Dr. Goldstein. Yes, very much so.
    Chairman Smith. Okay. Good. And secondly, if there were a 
number of ways to implement a regulation, would you favor 
implementing it in the least costly way possible if the same 
goal was achieved?
    Dr. Goldstein. Yes, of course.
    Chairman Smith. Okay. Good. The Judiciary Committee in the 
House of Representatives last year passed two reg relief bills 
to do just what I described, and they were opposed by the 
Administration, and they seem to be commonsense approaches to 
regulations, and so I thank you for your support of them. Thank 
you, Mr. Chairman.
    Chairman Harris. I thank you very much.
    Before we close, I am going to recognize the Ranking Member 
for a request.
    Ms. Bonamici. Thank you very much, Mr. Chairman. It has 
been an interesting discussion. I am not certain that the 
testimony presents to the full extent of what I believe we were 
here to discuss, the state of the environment, especially the 
impacts on public health of certain environmental laws, so I 
will be reviewing the testimony and where appropriate may be 
noting for the record where I believe clarification or 
additional explanation should be made. Thank you, Mr. Chair.
    Chairman Harris. Thank you, and I will reserve the right to 
object to inclusion of the material until my staff and I have 
had the time and opportunity to review it.
    I want to thank the witnesses for their valuable testimony 
and the Members for their questions. The Members of the 
Subcommittee may have additional questions for you, and we will 
ask you to respond to those in writing. The record will remain 
open for two weeks for additional comments and written 
questions from Members.
    The witnesses are excused and the hearing is adjourned.
    [Whereupon, at 11:39 a.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

Responses by The Honorable Kathleen Hartnett White

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Mr. Richard Trzupek

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. Bernard Goldstein


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              Appendix II

                              ----------                              


                   Additional Material for the Record

          EPA's Pretense of Science: Regulating Phantom Risks
           submitted by The Honorable Kathleen Hartnett White

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

            Memo, Re: Questionable Claims in Testimony from

          February 14, 2013 Environment Subcommittee hearing,

              submitted by Representative Suzanne Bonamici

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
